No. 21-

n the supreme Court of the ainiteb &tate%
ADIR INTERNATIONAL, LLC, DBA CURACAO, FKA LA CURACAO, A DELAWARE LIMITED
LIABILITY COMPANY; RON AZARKMAN, AN INDIVIDUAL, PETITIONERS
v.

STARR INDEMNITY AND LIABILITY COMPANY, A TEXAS CORPORATION
ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

PETITION FOR WRIT OF CERTIORARI
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I, as a member of the Supreme Court
bar, certify that the document contains 8,977 words, excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on October 8, 2021.

Steffen N. Johnson
Wilson Sonsini Goodrich & Rosati
Counsel for Petitioners

